No. 19-1112

 

In the Supreme Court of the United States

STEPHANIE JONES,
Petitioner,

JEREMY EDER, J. DALE, B. BAKER, R. NG, and FORT BEND COUNTY,
Respondents.

CERTIFICATE OF SERVICE

I, William Pieratt Demond, counsel for petitioners and a member of the Bar of
this Court, certify pursuant to this Court’s order of March 9, 2020 that on this 29th
day of April, 2020, I caused one copy of this reply brief to be served by electronic
means on the following:

William S. Helfand Justin Carl Pfeiffer

Lewis, Brisbois, Bisgaard & Smith Fort Bend County Attorney’s Office
24 Greenway Plaza 401 Jackson Street, Third Floor
Suite 1400 Richmond, Texas 77469

Houston, Texas 77046

I further certify that all parties required to be served have been served.

William Pieratt Demond
Counsel for Petitioner
